                                                                      Federal Register / Vol. 78, No. 249 / Friday, December 27, 2013 / Proposed Rules                                          78807

                                                already reimbursed by the Medicare                         1. Electronically. You may submit                  I. Background
                                                program.                                                electronic comments on specific
                                                                                                                                                              A. OIG Safe Harbor Provisions
                                                *     *     *    *    *                                 recommendations and proposals
                                                ■ 8. Add a new § 405.947 to subpart I to                through the Federal eRulemaking Portal                  Section 1128B(b) of the Social
                                                read as follows:                                        at http://www.regulations.gov.                        Security Act (the Act) (42 U.S.C. 1320a–
                                                                                                                                                              7b(b)) provides criminal penalties for
                                                § 405.947 Notice to the beneficiary of                     2. By regular, express, or overnight               individuals or entities that knowingly
                                                applicable plan’s request for a                         mail. You may send written comments                   and willfully offer, pay, solicit, or
                                                redetermination.                                        to the following address: Patrice Drew,               receive remuneration to induce or
                                                  (a) The contractor adjudicating the                   Office of Inspector General,                          reward business reimbursable under the
                                                redetermination request must send                       Congressional and Regulatory Affairs,                 Federal health care programs. The
                                                notice of the applicable plan’s appeal to               Department of Health and Human                        offense is classified as a felony and is
                                                the beneficiary.                                        Services, Attention: OIG–122–N, Room                  punishable by fines of up to $25,000
                                                  (b) Issuance and content of the notice                5541C, Cohen Building, 330                            and imprisonment for up to 5 years. OIG
                                                must comply with CMS instructions.                      Independence Avenue SW.,                              may also impose civil money penalties,
                                                (Catalog of Federal Domestic Assistance                 Washington, DC 20201. Please allow                    in accordance with section 1128A(a)(7)
                                                Program No. 93.773, Medicare—Hospital                   sufficient time for mailed comments to                of the Act (42 U.S.C. 1320a–7a(a)(7)), or
                                                Insurance; and Program No. 93.774,                      be received before the close of the                   exclusion from the Federal health care
                                                Medicare—Supplementary Medical                          comment period.                                       programs, in accordance with section
                                                Insurance Program)                                                                                            1128(b)(7) of the Act (42 U.S.C. 1320a–
                                                                                                           3. By hand or courier. If you prefer,
                                                  Dated: August 29, 2013.                               you may deliver, by hand or courier,                  7(b)(7)).
                                                Marilyn Tavenner,                                       your written comments before the close                  Since the statute on its face is so
                                                Administrator, Centers for Medicare &                                                                         broad, concern has been expressed for
                                                                                                        of the comment period to Patrice Drew,
                                                Medicaid Services.                                                                                            many years that some relatively
                                                                                                        Office of Inspector General, Department
                                                  Approved: November 12, 2013.                                                                                innocuous commercial arrangements
                                                                                                        of Health and Human Services, Cohen
                                                Kathleen Sebelius,
                                                                                                                                                              may be subject to criminal prosecution
                                                                                                        Building, Room 5541C, 330                             or administrative sanction. In response
                                                Secretary, Department of Health and Human               Independence Avenue SW.,                              to the above concern, section 14 of the
                                                Services.                                               Washington, DC 20201. Because access                  Medicare and Medicaid Patient and
                                                [FR Doc. 2013–30661 Filed 12–26–13; 8:45 am]            to the interior of the Cohen Building is              Program Protection Act of 1987, Public
                                                BILLING CODE 4120–01–P                                  not readily available to persons without              Law 100–93 § 14, the Act, § 1128B(b), 42
                                                                                                        Federal Government identification,                    U.S.C. 1320a–7b(b), specifically
                                                                                                        commenters are encouraged to schedule                 required the development and
                                                DEPARTMENT OF HEALTH AND                                their delivery with one of our staff                  promulgation of regulations, the so-
                                                HUMAN SERVICES                                          members at (202) 619–1368. For                        called ‘‘safe harbor’’ provisions,
                                                                                                        information on viewing public                         specifying various payment and
                                                Office of Inspector General
                                                                                                        comments, please see the                              business practices that, although
                                                                                                        Supplementary Information section.                    potentially capable of inducing referrals
                                                42 CFR Part 1001
                                                                                                        FOR FURTHER INFORMATION CONTACT:
                                                                                                                                                              of business reimbursable under the
                                                Solicitation of New Safe Harbors and                    Patrice Drew, Congressional and                       Federal health care programs, would not
                                                Special Fraud Alerts                                    Regulatory Affairs Liaison, Office of                 be treated as criminal offenses under the
                                                                                                        Inspector General, (202) 619–1368.                    anti-kickback statute and would not
                                                AGENCY:  Office of Inspector General                                                                          serve as a basis for administrative
                                                (OIG), HHS.                                             SUPPLEMENTARY INFORMATION:                            sanctions. OIG safe harbor provisions
                                                ACTION: Notice of intent to develop                                                                           have been developed ‘‘to limit the reach
                                                                                                           Submitting Comments: We welcome
                                                regulations.                                                                                                  of the statute somewhat by permitting
                                                                                                        comments from the public on
                                                SUMMARY:   In accordance with section                   recommendations for developing new or                 certain non-abusive arrangements, while
                                                205 of the Health Insurance Portability                 revised safe harbors and Special Fraud                encouraging beneficial and innocuous
                                                and Accountability Act of 1996                          Alerts. Please assist us by referencing               arrangements’’ (56 FR 35952, July 29,
                                                (HIPAA), this annual notice solicits                    the file code OIG–122–N.                              1991). Health care providers and others
                                                proposals and recommendations for                                                                             may voluntarily seek to comply with
                                                                                                           Inspection of Public Comments: All                 these provisions so that they have the
                                                developing new and modifying existing                   comments received before the end of the
                                                safe harbor provisions under the Federal                                                                      assurance that their business practices
                                                                                                        comment period are available for                      will not be subject to liability under the
                                                anti-kickback statute (section 1128B(b)                 viewing by the public. All comments
                                                of the Social Security Act), as well as                                                                       anti-kickback statute or related
                                                                                                        will be posted on http://                             administrative authorities. The OIG safe
                                                developing new OIG Special Fraud                        www.regulations.gov as soon as possible
                                                Alerts.                                                                                                       harbor regulations are found at 42 CFR
                                                                                                        after they have been received.                        1001.952.
                                                DATES: To ensure consideration, public                  Comments received timely will also be
                                                comments must be delivered to the                       available for public inspection as they               B. OIG Special Fraud Alerts
                                                address provided below by no later than                 are received at Office of Inspector                     OIG has also periodically issued
                                                5 p.m. on February 25, 2014.                            General, Department of Health and
tkelley on DSK3SPTVN1PROD with PROPOSALS




                                                                                                                                                              Special Fraud Alerts to give continuing
                                                ADDRESSES: In commenting, please refer                  Human Services, Cohen Building, 330                   guidance to health care providers with
                                                to file code OIG–122–N. Because of staff                Independence Avenue SW.,                              respect to practices OIG finds
                                                and resource limitations, we cannot                     Washington, DC 20201, Monday                          potentially fraudulent or abusive. The
                                                accept comments by facsimile (fax)                      through Friday from 9:30 a.m. to 5 p.m.               Special Fraud Alerts encourage industry
                                                transmission.                                           To schedule an appointment to view                    compliance by giving providers
                                                   You may submit comments in one of                    public comments, phone (202) 619–                     guidance that can be applied to their
                                                three ways (no duplicates, please):                     1368.                                                 own practices. OIG Special Fraud Alerts


                                           VerDate Mar<15>2010   19:07 Dec 26, 2013   Jkt 232001   PO 00000   Frm 00020   Fmt 4702   Sfmt 4702   E:\FR\FM\27DEP1.SGM   27DEP1
                                                78808                 Federal Register / Vol. 78, No. 249 / Friday, December 27, 2013 / Proposed Rules

                                                are intended for extensive distribution                 safe harbor regulations and new Special               DEPARTMENT OF HOMELAND
                                                directly to the health care provider                    Fraud Alerts beyond those summarized                  SECURITY
                                                community, as well as to those charged                  in Appendix F.
                                                with administering the Federal health                                                                         Federal Emergency Management
                                                                                                          A detailed explanation of
                                                care programs.                                                                                                Agency
                                                                                                        justifications for, or empirical data
                                                  In developing Special Fraud Alerts,
                                                                                                        supporting, a suggestion for a safe                   44 CFR Part 67
                                                OIG has relied on a number of sources
                                                and has consulted directly with experts                 harbor or Special Fraud Alert would be
                                                in the subject field, including those                   helpful and should, if possible, be                   [Docket ID FEMA–2013–0002; Internal
                                                within OIG, other agencies of the                       included in any response to this                      Agency Docket No. FEMA–B–7748]
                                                Department, other Federal and State                     solicitation.
                                                agencies, and those in the health care                                                                        Proposed Flood Elevation
                                                                                                        A. Criteria for Modifying and                         Determinations for Pierce County,
                                                industry.                                               Establishing Safe Harbor Provisions                   Washington, and Incorporated Areas
                                                C. Section 205 of the Health Insurance
                                                                                                          In accordance with section 205 of                   AGENCY:  Federal Emergency
                                                Portability and Accountability Act of
                                                1996                                                    HIPAA, we will consider a number of                   Management Agency, DHS.
                                                                                                        factors in reviewing proposals for new                ACTION: Proposed rule; withdrawal.
                                                   Section 205 of the Health Insurance                  or modified safe harbor provisions, such
                                                Portability and Accountability Act of                   as the extent to which the proposals                  SUMMARY:   The Federal Emergency
                                                1996 (HIPAA), Public Law 104–191                        would affect an increase or decrease in:              Management Agency (FEMA) is
                                                § 205, the Act, § 1128D, 42 U.S.C.                                                                            withdrawing its proposed rule
                                                1320a–7d, requires the Department to                      • Access to health care services,
                                                                                                                                                              concerning proposed flood elevation
                                                develop and publish an annual notice in                   • the quality of health care services,              determinations for Pierce County,
                                                the Federal Register formally soliciting                  • patient freedom of choice among                   Washington, and Incorporated Areas.
                                                proposals for modifying existing safe                   health care providers,                                DATES: The proposed rule published
                                                harbors to the anti-kickback statute and
                                                for developing new safe harbors and                       • competition among health care                     December 6, 2007, at 72 FR 68784,
                                                Special Fraud Alerts.                                   providers,                                            corrected April 16, 2012, at 77 FR
                                                                                                                                                              22551, is withdrawn effective December
                                                   In developing safe harbors for a                       • the cost to Federal health care
                                                criminal statute, OIG is required to                                                                          27, 2013.
                                                                                                        programs,
                                                engage in a thorough review of the range                                                                      ADDRESSES: You may submit comments,
                                                                                                          • the potential overutilization of                  identified by Docket No. FEMA–B–
                                                of factual circumstances that may fall
                                                                                                        health care services, and                             7748, to Luis Rodriguez, Chief,
                                                within the proposed safe harbor subject
                                                area so as to uncover potential                           • the ability of health care facilities to          Engineering Management Branch,
                                                opportunities for fraud and abuse. Only                 provide services in medically                         Federal Insurance and Mitigation
                                                then can OIG determine, in consultation                 underserved areas or to medically                     Administration, Federal Emergency
                                                with the Department of Justice, whether                 underserved populations.                              Management Agency, 500 C Street SW.,
                                                it can effectively develop regulatory                     In addition, we will also take into                 Washington, DC 20472, (202) 646–4064,
                                                limitations and controls that will permit                                                                     or (email) Luis.Rodriguez3@
                                                                                                        consideration other factors, including,
                                                beneficial and innocuous arrangements                                                                         fema.dhs.gov.
                                                                                                        for example, the existence (or
                                                within a subject area while, at the same                nonexistence) of any potential financial              FOR FURTHER INFORMATION CONTACT:    Luis
                                                time, protecting the Federal health care                benefit to health care professionals or               Rodriguez, Chief, Engineering
                                                programs and their beneficiaries from                                                                         Management Branch, Federal Insurance
                                                                                                        providers that may be taken into
                                                abusive practices.                                                                                            and Mitigation Administration, Federal
                                                                                                        account in their decisions whether to (1)
                                                II. Solicitation of Additional New                      order a health care item or service or (2)            Emergency Management Agency, 500 C
                                                Recommendations and Proposals                           arrange for a referral of health care items           Street SW., Washington, DC 20472,
                                                                                                        or services to a particular practitioner or           (202) 646–4064, or (email)
                                                  In accordance with the requirements                                                                         Luis.Rodriguez3@fema.dhs.gov.
                                                of section 205 of HIPAA, OIG last                       provider.
                                                                                                                                                              SUPPLEMENTARY INFORMATION: On
                                                published a Federal Register                            B. Criteria for Developing Special Fraud
                                                solicitation notice for developing new                                                                        December 6, 2007, FEMA published a
                                                                                                        Alerts                                                proposed rulemaking at 72 FR 68784,
                                                safe harbors and Special Fraud Alerts on
                                                December 28, 2012 (77 FR 76434). As                                                                           proposing flood elevation
                                                                                                          In determining whether to issue                     determinations along one or more
                                                required under section 205, a status                    additional Special Fraud Alerts, we will
                                                report of the public comments related to                                                                      flooding sources in Pierce County,
                                                                                                        consider whether, and to what extent,                 Washington. On April 16, 2012, FEMA
                                                safe harbors received in response to that               the practices that would be identified in
                                                notice is set forth in Appendix F to the                                                                      published a proposed rulemaking at 77
                                                                                                        a new Special Fraud Alert may result in               FR 22551, proposing corrected flood
                                                OIG’s Semiannual Report to Congress                     any of the consequences set forth above,
                                                covering the period April 1, 2013,                                                                            elevation determinations along one or
                                                                                                        as well as the volume and frequency of                more flooding sources in Pierce County,
                                                through September 30, 2013.1 OIG is not                 the conduct that would be identified in               Washington. Because FEMA has or will
                                                seeking additional public comment on                    the Special Fraud Alert.
tkelley on DSK3SPTVN1PROD with PROPOSALS




                                                                                                                                                              be issuing a Revised Preliminary Flood
                                                the proposals listed in Appendix F at
                                                                                                          Dated: December 17, 2013.                           Insurance Rate Map, and if necessary a
                                                this time. Rather, this notice seeks
                                                                                                                                                              Flood Insurance Study report, featuring
                                                additional recommendations regarding                    Daniel R. Levinson,
                                                                                                                                                              updated flood hazard information, the
                                                the development of new or modified                      Inspector General.                                    proposed rulemaking is being
                                                                                                        [FR Doc. 2013–30429 Filed 12–26–13; 8:45 am]          withdrawn. A Notice of Proposed Flood
                                                  1 The OIG Semiannual Report to Congress can be

                                                accessed through the OIG Web site at http://            BILLING CODE 4152–01–P                                Hazard Determinations will be
                                                oig.hhs.gov/publications/semiannual.asp.                                                                      published in the Federal Register and in


                                           VerDate Mar<15>2010   19:07 Dec 26, 2013   Jkt 232001   PO 00000   Frm 00021   Fmt 4702   Sfmt 4702   E:\FR\FM\27DEP1.SGM   27DEP1
